Report No. D-2008-049            February 13, 2008




      Internal Controls Over Army Selective
              Reenlistment Bonuses
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AMPO                  Army Military Pay Operations
CPO                   Central Processing Operations
DFAS                  Defense Finance and Accounting Service
DJMS                  Defense Joint Military Pay System
DMO                   Defense Military Pay Office
HRC                   Army Human Resources Command
OIG                   Office of Inspector General
RETAIN                Reenlistment, Extension, Reclassification, and
                       Reserve Component Transition System
SRB                   Selective Reenlistment Bonus
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                         February 13, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE INDIANAPOLIS

SUBJECT: Report on Internal Controls Over Army Selective Reenlistment Bonuses
         (Report No, D-2008-049)


        Weare providing this report for review and comment. The Director of the Army
Human Resources Command did not respond to the draft report; however, we considered
comments from the Defense Finance and Accounting Service when preparing the final
report,

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service comments were partially responsive.
Therefore, we request additional comments on Recommendation l.a. by March 14, 2008.
As a result of management comments, we deleted Recommendation 1.b. from the report.
We request that the Director of the Army Human Resources Command provide
comments on Recommendation 2. by March 14,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudDFS@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Joseph A. Powell at (703) 601-5953 (DSN 329-5953). See Appendix C for the
report distribution.

                               By direction ofthe Deputy Inspector General for Auditing:



                                        i~a.m~
                                        PatriCIa A. Marsh, CPA
                                      Assistant Inspector General
                                   Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2008-049                                                February 13, 2008
  (Project No. D2007-D000FP-0111.000)

      Internal Controls Over Army Selective Reenlistment Bonuses

                                Executive Summary

Who Should Read This Report and Why? The Director of the Defense Finance and
Accounting Service (DFAS) Indianapolis and the Director of the Army Human
Resources Command should read this report because it discusses and recommends
improvements to the processes for and controls over selective reenlistment bonuses
(SRBs) for Army Service members.

Background. DFAS Indianapolis is responsible for computing pay and making
disbursements to Army Service members. DFAS Indianapolis disburses more than
$104 billion annually to more than 1.9 million Army Service members. The Army sends
pay information to the Defense Joint Military Pay System, a financial management
system located at DFAS Indianapolis, for DFAS to process the pay. DFAS Denver
controls and maintains the Defense Joint Military Pay System for all of DoD.

The Reenlistment, Extension, Reclassification, and Reserve Component Transition
System (RETAIN) is the Army’s computerized retention system for enlisted personnel.
It contains all the reenlistment data required to document the retention of Army Service
members, including tracking reenlistment bonuses paid and data required to transition
active Army Service members to the Army National Guard and U.S. Army Reserves.
DFAS and the Army activated an adjustment to the SRB portion of the interface between
RETAIN and the Defense Joint Military Pay System in April 2007. This interface
reduced the requirement for reenlistment data to be manually fed from RETAIN into the
Defense Joint Military Pay System. RETAIN provides the Army Human Resources
Command (HRC) Enlisted Personnel Management Directorate with a list of both
processed SRBs and those rejected for career counselors to review and correct. An SRB
is paid to encourage Army Service members to reenlist in critical military occupational
skills to ensure adequate retention levels.

The total budgeted amount for Army active duty military personnel for the year ended
September 30, 2006, was $31.105 billion. In FY 2006, the Army made 70,754 SRB
payments to Army Service members totaling approximately $654 million.

Results. The purpose of the audit was to determine whether internal controls were in
place and effective for payments to Army Service members for reenlistment bonuses.
Funding was not made available to maintain the Defense Joint Military Pay System to
allow the Army to pay the amount due to Service members for SRBs. As a result,
1,336 SRBs worth $15.6 million were not paid as of August 31, 2007. We recommend
that DFAS improve the Defense Joint Military Pay System so that it will pay Army
Service members the amount owed. We also recommend that the Army HRC develop
internal controls to include posting the information concerning selective reenlistment
bonus payments to the bonus report in the RETAIN system for Army career counselor
access. We identified DFAS management control weaknesses related to the processing
of Army reenlistment bonuses. Although those weaknesses were not material in relation
to the Army reenlistment bonus program taken as a whole, the weaknesses should be
resolved because reenlistment bonuses affect Army Service members’ pay. The
recommendations, when implemented, will correct these internal control weaknesses.
(See the Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Director of the Army Human
Resources Command did not comment on the October 4, 2007, draft of this report. The
Director, Defense Finance and Accounting Service Indianapolis disagreed with two of
the recommendations and partially agreed with one recommendation. As a result of the
management comments, we deleted a draft recommendation. The Director, Defense
Finance and Accounting Service Indianapolis comments were nonresponsive for
Recommendation 1. The Army Military Pay Operations personnel should determine how
often they must correct reenlistment transactions when the payment is blocked by a
Code T in the Defense Joint Military Pay System. We request that the Director, Defense
Finance and Accounting Service Indianapolis reconsider his position on
Recommendation 1. and provide comments on the final report. We request that the
Director, Defense Finance and Accounting Service Indianapolis and the Director, Army
Human Resources Command provide comments on the final report by March 14, 2008.
(See the Finding section of the report for discussion of management comments and the
Management Comments section of the report for the complete text of the comments.)




                                          ii
Table of Contents

Executive Summary                                           i

Background                                                  1

Objective                                                   2

Review of Internal Controls                                 2

Finding
     Payments for Selective Reenlistment Bonuses            4

Appendixes
     A. Scope and Methodology                              10
           Prior Coverage                                  11
     B. Glossary                                           12
     C. Report Distribution                                13

Management Comments
     Defense Finance and Accounting Service Indianapolis   15
Background
    In August 2006, the Army requested that the Department of Defense Office of the
    Inspector General (DoD OIG) review SRBs for timeliness of payments. On
    March 28, 2007, we issued Report No. D-2007-077, “Timeliness of Payments for
    Reenlistment Bonuses in the Army.” We determined that 97.75 percent of the
    Service members paid had properly received a reenlistment bonus within 30 days
    after their reenlistment date, as recorded in the Reenlistment, Extension,
    Reclassification, and Reserve Component Transition System (RETAIN). During
    the period of August 2006 to May 2007, the Defense Finance and Accounting
    Service (DFAS) processed more than 26,000 reenlistment actions with a
    98.9 percent accuracy rate. Ninety-three percent were paid within 15 days of the
    reenlistment date, the agreed-upon standard between RETAIN and DFAS.
    However, because we identified internal control issues during our review of the
    timeliness of SRB payments, we determined we should perform this additional
    review of internal controls over Selective Reenlistment Bonuses (SRBs).

    Defense Finance and Accounting Service. DFAS Indianapolis is responsible for
    computing pay and making disbursements to Army Service members. DFAS
    Indianapolis disburses more than $104 billion annually to a population of more
    than 1.9 million Army Service members including active and Reserve Component
    members and their spouses. The Army sends pay information through the
    Defense Joint Military Pay System (DJMS) at DFAS Indianapolis for DFAS to
    compute pay. DFAS Denver controls and maintains DJMS for all of DoD. DJMS
    supports pay and entitlements for active duty Army Service members. The
    Defense Military Pay Office (DMO) software is used to input payroll data,
    including reenlistment bonuses, in DJMS. The total budgeted amount for Army
    active duty military personnel for the year ended September 30, 2006, was
    $31.105 billion. In FY 2006, DFAS made 70,754 SRB payments to Army
    Service members totaling approximately $654 million. An SRB is paid to
    encourage Army Service members to reenlist in critical military occupational
    skills to ensure adequate retention levels.

    Installation-Level Career Counselors. The reenlistment bonus payment process
    begins at the installation level with the preparation of a Department of the Army
    Form 4591R (Retention Data Worksheet), the Defense Department Form 4-1
    (Enlistment/Reenlistment), and Form 3340 (Request for Reenlistment or
    Extension in the Regular Army). Army career counselors manually calculate a
    Service member’s reenlistment bonus according to the Service member’s Basic
    Active Service date, years of experience, military occupational skill, and
    additional years of obligated Service. The career counselors then enter a
    member’s reenlistment bonus amount in the Army’s reenlistment information
    system: RETAIN. The career counselors are under the command of the Army
    Human Resources Command (HRC). Career counselors are required to confirm a
    reenlistment within 3 days of the actual event. They do not send reenlistment
    data to DFAS for payment until a reenlistment has been confirmed. The
    reenlistment bonus payment information is transmitted from RETAIN to DJMS
    for processing and payment.

    RETAIN System. RETAIN is the Army’s computer retention system for
    tracking enlisted personnel retention. It contains all the reenlistment data
    required to document the retention of Army Service members, including tracking


                                        1
           reenlistment bonuses paid and data required to transition active Army Service
           members to the Army National Guard and U.S. Army Reserves. RETAIN has no
           standardized process or spreadsheets, so computations vary. The career
           counselors are responsible for manually computing the bonus entitlement. Thus,
           the counselors use various methods, forms, and spreadsheets. DFAS and the
           Army activated an adjustment to the SRB portion of the interface between
           RETAIN and DJMS in April 2007. This interface reduced the requirement for
           reenlistment data to be manually fed from RETAIN into DJMS. RETAIN
           provides the Army HRC Enlisted Personnel Management Directorate with a list
           of both processed SRBs and those rejected for career counselors to review and
           correct.

           Army Military Pay Operations and Payments of Selected Reenlistment
           Bonuses. The Army Military Pay Operations (AMPO) branch of DFAS
           Indianapolis is responsible for paying Army Service member entitlements, except
           for SRBs. The AMPO consists of 8 divisions with 327 personnel assigned to the
           Centralized Processing Office (CPO) division. There are 15 personnel assigned
           to the Bonus Branch, which processes all Army bonuses. The workload has more
           than tripled since 2003. CPO has 15 employees involved in processing and paying
           bonuses. Before the activation of the RETAIN/DJMS interface, the CPO was
           responsible for processing and paying reenlistment bonus information received
           from the RETAIN system. The CPO used the DJMS and DMO systems for
           paying the bonuses, usually to Army Service members’ bank accounts. The CPO
           still pays SRBs to Army Service members. The CPO continues to review
           information from FLASH * messages provided to it by the Army HRC Enlisted
           Personnel Management Directorate. FLASH messages contain information on
           possible reenlistment bonus payment errors. The CPO processes information
           from FLASH messages for correction as needed.


Objective
           Our overall audit objective was to determine whether internal controls were in
           place and were effective for payments to Army Service members for reenlistment
           bonuses. See Appendix A for a discussion of the audit scope and methodology
           and for prior coverage related to our audit objective.


Review of Internal Controls
           DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
           Procedures,” January 4, 2006, states that internal controls are the organization,
           policies, and procedures that help program and financial managers to achieve
           results and safeguard the integrity of their programs.

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of the DFAS Indianapolis Management Control Program. Specifically,
           we reviewed the adequacy of DFAS controls over the processing of Army
           reenlistment bonuses.
*
    Appendix B is a glossary of technical terms used in this report.



                                                        2
Adequacy of Management Controls. We identified DFAS management control
weaknesses related to the processing of Army reenlistment bonuses. Specifically,
DFAS did not maintain DJMS to allow the Army to pay the amount due to
Service members for SRBs, and DFAS and the Army HRC did not post SRB
payment information so career counselors could verify the accuracy of SRB
payments with those in the RETAIN system. Although those weaknesses were
not material in relation to the Army reenlistment bonus program taken as a whole,
the weaknesses should be resolved because reenlistment bonuses affect Army
Service members’ pay.

Management Actions. As a result of our review, DFAS Indianapolis began
taking immediate corrective actions. Those actions included the development of
standard operating procedures, as well as secondary reviews of the accuracy of
the SRB amounts processed in DJMS.




                                    3
           Payments for Selective Reenlistment
           Bonuses
           DFAS and the Army HRC internal controls over payments to Army
           Service members for reenlistment bonuses were not completely effective.
           Specifically, funding was not made available to maintain DJMS to allow
           the Army to pay the amount due to Service members for SRBs. The Army
           did not pay the bonuses because DJMS rejected the selective reenlistment
           bonus transactions that would have paid Army Service members the
           amount owed. Also, the Army HRC did not post selective reenlistment
           bonus payment information so career counselors could verify the accuracy
           of selective reenlistment bonus payments with those in RETAIN. As a
           result, 1,336 selective reenlistment bonuses worth $15.6 million were not
           paid as of August 31, 2007.



Reenlistment Bonus Criteria
    The Army implements section 308, title 37, United States Code (37 U.S.C. 308),
    “Special Pay: Reenlistment Bonus,” to provide special pay to Service members
    for reenlisting or voluntarily extending their enlistment. As such, 37 U.S.C. 308
    defines the legal limitations, including adjustments based on the FY 2007
    National Defense Authorization Act (Public Law 109-364, October 17, 2006).
    The Army implements 37 U.S.C. 308 through the Department of Defense
    Financial Management Regulation and Army Regulation laws on reenlistment
    bonuses. The Financial Management Regulation also provides policy regarding
    financial management and military pay. In addition, DFAS Military Pay
    E Messages provide further guidance on reenlistment bonus procedures.

    United States Code. As stated in 37 U.S.C. 308, a Service member is qualified
    for a reenlistment bonus if the Service member has completed at least 17 months
    of active duty. Also, the Service member must be qualified in a critical Military
    Occupational Skill and agree to reenlist for a period of at least 3 years.
    Reenlistment bonus payments are paid to the member in either a lump sum or
    installments totaling up to $60,000.

    DoD Financial Management Regulation. DoD Financial Management
    Regulation, volume 7A, chapter 9, “Special Pay-Enlistment and Reenlistment
    Bonus-Enlisted Members,” May 2005, implements the United States Code. SRBs
    are paid according to three zones of consideration. Zone A SRBs contain those
    reenlistments falling between 17 months and 6 years of active Service. Zone B
    SRBs contain those reenlistments falling between 6 years and 10 years of active
    Service. Zone C SRBs contain those reenlistments falling between 10 years and
    14 years of active Service. The single lump sum or initial payment of the SRB to
    a member who reenlists with a break in active duty greater than 24 hours is paid
    no earlier than 30 days after the member arrives at the first permanent duty station
    following reenlistment.

    Army Regulation 601-280. Army Regulation 601-280, “Army Retention
    Program,” January 31, 2006, outlines procedures for immediate reenlistment or


                                         4
      extension of enlistment. The Commander, Army HRC is responsible for
      operating and technically supervising the SRB program. The objective of the
      SRB program is to increase reenlistments in critical Military Occupational Skills
      that do not have adequate retention levels to fill the career force.

      DFAS Military Pay E Message 07-041, Army Reenlistment Bonus Process.
      DFAS Military Pay E Message 07-041, Army Reenlistment Bonus Process,
      expiring December 31, 2008, requires that SRBs be based on the Army Service
      members’ years of additional obligation for service incurred as a result of the
      reenlistment. The E Message requires Service members to contact their career
      counselor for resolving reenlistment bonus payment issues. The CPO pays SRBs
      to Army Service members. The retention non-commissioned officers and career
      counselors have sole responsibility for the reenlistments.


Accuracy of Selective Reenlistment Bonuses to Army Members
      DFAS internal controls were not effective for payments to Army Service
      members for reenlistment bonuses. Specifically, DFAS did not maintain DJMS to
      allow the Army to pay the amount due to Service members for SRBs. From April
      16, 2007, through August 31, 2007, the Army did not correctly pay 1,336 Service
      members their SRBs. The bonuses were not paid because of three types of errors
      in the DJMS system: Maximum Bonus Indicator, Stop/Loss, and Code T
      separation. The rejected payment transactions prevent payment for a set period of
      time, and some of the SRBs may have been paid after the data were obtained.



                                Selective Reenlistment
                                        Bonuses
   DJMS Reject Type                     Rejects                Monetary Amount
Maximum Bonus Indicator                   731                    $10,028,555
Stop/Loss                                 258                     2,149,353
Code T                                    347                     3,458,077
SRBs Rejected                            1,336                   $15,635,985
(Subtotal)
SRBs Not Rejected                        3,244                     $37,186,060

Military Pay System Accuracy and Review
      The Army did not pay the bonuses because the DJMS rejected the SRB
      transactions that would have paid the Army Service members the amount owed.
      Also, the Army HRC did not post SRB payment information so career counselors
      could verify the accuracy of SRB payments with those in RETAIN.

      Defense Joint Military Pay System Funding and Programming. DFAS
      controls and maintains DJMS. In January 2003, DFAS Military Pay Operations
      discontinued all funding for DJMS software maintenance in order to fund the
      Forward Compatibility Pay System (which was meant to be an interim military
      pay system but was later canceled). When the Forward Compatibility Pay System


                                          5
was cancelled, all funding and programming efforts then switched to the Defense
Integrated Military Human Resources System and not back to DJMS. The funding
change affected system change requests in progress for DJMS. DFAS resumed
the funding of DJMS in December 2005. However, DFAS’s failure to provide
consistent funding and programming for DJMS has led to maximum bonus
indicator, stop/loss, and separation date payment rejections.

        Maximum Bonus Indicator. DFAS rejected 731 transactions worth
approximately $10 million because DJMS used the incorrect maximum bonus
indicator table. DJMS should be updated so that it uses the correct maximum
bonus indicator table.

        Stop/Loss Category. DJMS does not have the correct separation date for
Service members in a stop/loss category. The Army issues a stop/loss order to
prevent the discharge of Service members deemed essential to national security.
When an Army Service member is affected by a stop/loss order, the separation
date is automatically changed in DJMS to reflect the extension of Service.
However, DJMS cannot accurately calculate the SRB when an Army Service
member subsequently reenlists because the bonus is determined by the Army
Service member’s years of Additional Obligation for Service incurred as a result
of the reenlistment. Stop/loss and separations cause bonuses to be incorrectly
computed because the Expired Term of Service date in both RETAIN and DJMS
have been moved out to the stop/loss date as opposed to the true contracted ETS
date. The organization responsible for RETAIN was briefed on this when the
interface went live in April 2007 and several times afterwards. The Army HRC
Enlisted Personnel Management Directorate suggested that DFAS modify DJMS
to accept a factor to determine bonuses that would reflect the correct separation
date instead of the date in DJMS. As of September 11, 2007, DFAS had not
adjusted DJMS to accept the factor provided through the RETAIN interface.

        Separation Dates. DJMS also cannot calculate the bonus accurately
because Army Service members approaching separation dates are often classified
as Code T even before separation. The Code T classification indicates a Service
member is pending separation from the military, and the Service member’s
account is suspended by the Code T. The Army Service member then has the
option to either separate from the Army or reenlist and qualify for an SRB.
However, if the Service member reenlists, the SRB is rejected in DJMS because
DJMS shows the Service members’ account is suspended in a Code T status. The
Code T in DJMS prevents payment until the Army HRC takes corrective action to
pay the Army Service member the amount due. The Army representative
suggested that DJMS should convert Code T automatically to a payable Code A
when the Army Service member reenlists.

        Review of Selective Reenlistment Bonus Transactions. Army career
counselors cannot ensure the accuracy of SRBs paid because the Army HRC had
not posted SRB payment data to the DJMS bonus report in RETAIN. Army
career counselors can assure Army Service members that they are being paid
properly only if the career counselors have access to the DJMS bonus report in
the RETAIN system. Career counselors still rely on the Army Service members
to report SRB errors. According to the DFAS AMPO, Army HRC is responsible
for providing the SRB payment data for the DJMS bonus report.




                                    6
Conclusion
    We determined that 1,336 Army Service member bonuses totaling $15.6 million
    were not paid as of August 31, 2007. There were 731 Army Service members
    whose bonuses were rejected because the incorrect table was used in DJMS.
    Another 258 Army Service members had their SRB rejected because DJMS did
    not have the correct separation date for members in a stop/loss category. DJMS
    had not been modified to accept a factor for bonuses that would have solved this
    problem. In addition, 347 other Army Service members were classified as
    separated (Code T) and were not paid the bonuses owed to them. DFAS should
    improve DJMS to prevent it from rejecting bonus transactions.

    The non-payments were also caused by the very limited review of the results of
    DJMS processing SRBs through the interface with RETAIN. According to DFAS
    Military Pay E Message 07-041, the Army career counselors and retention non-
    commissioned officers have sole responsibility for reenlistments. The Army HRC
    had not posted the data needed for Army career counselors to determine the
    amount of selective reenlistment bonuses paid. The Army HRC should post the
    SRB payment data needed so that Army career counselors can determine the
    amount of bonus paid.




                                        7
Recommendations, Management Comments, and Audit
  Response
Deleted and Renumbered Recommendations. As a result of management
comments, we deleted draft Recommendation 1.b. Recommendation 1.c. has been
renumbered as Recommendation 1.b.

1. The Director of the Defense Finance and Accounting Service Indianapolis
should:

      a. Improve the Defense Joint Military Pay System so that it will pay
Army Service members the selective reenlistment bonus amount owed. At a
minimum, update the Defense Joint Military Pay System to convert Code T
automatically to a payable Code A when the Army Service member reenlists.

Management Comments. The Director, DFAS Indianapolis nonconcurred and
stated that the edits built into DJMS compare key data fields upon receipt of the
RETAIN and TRANSPROC data, and DJMS rejects certain RETAIN transactions
for separated accounts. RETAIN sends a reenlistment transaction to DFAS.
DJMS cannot determine whether the TRANSPROC or RETAIN transaction is
correct. The Army Military Pay Operations personnel stated that they correctly
reject the second transaction for validation by the source (RETAIN).

Audit Response. The Director, DFAS Indianapolis comments are not responsive.
The Army Military Pay Operations personnel did not provide any specific
evidence to support that DJMS is accurately calculating the bonuses for Service
members approaching separation dates from the military. The Army Military Pay
Operations personnel should determine how often they must correct reenlistment
transactions when the payment is blocked by a Code T in DJMS. We request that
DFAS reconsider its position on the recommendation and provide comments on
the final report.

       b. Review the rejected selective reenlistment bonus payment data and
pay those bonuses that meet the criteria for payment, and identify and
correct those rejected selective reenlistment bonuses not appropriate for
payment.

Management Comments. The Director, DFAS Indianapolis concurred and
stated that the correction of rejects occurs within the 15-day processing time.
DFAS audited the data and identified that 97.9 percent of the applicable bonuses
were paid on time and in the correct amount. Also, DFAS forwarded to RETAIN
156 accounts for additional validation. The Director, DFAS Indianapolis stated
that the Army Human Resources Command Enlisted Personnel Management
Directorate has not validated the remaining 138 accounts requiring adjustments or
action to pay.

Audit Response. Although DFAS only partially concurred, the DFAS comments
are responsive. DFAS has thoroughly analyzed the rejected selective reenlistment
bonus payment data we provided. The validation of the 156 accounts will assist
in resolving whether it was appropriate to pay those bonuses.




                                    8
      2. The Director of the Army Human Resources Command should
develop internal controls over posting the selective reenlistment bonus
payment data to the bonus report of selective reenlistment bonuses paid in
the RETAIN system for Army career counselor access.

Management Comments Required
       The Director of the Army Human Resources Command did not comment
       on a draft of this report. We request that the Director of the Army Human
       Resources Command provide comments on the final report. In addition,
       we request that the Director of the Army Human Resources Command
       process and provide information on the 138 reenlistment bonus accounts
       requiring validation.




                                   9
Appendix A. Scope and Methodology
   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objectives.

   We examined Army reenlistment bonuses and the related internal controls. We
   reviewed the internal controls over the reenlistment bonus payment process from
   base level to DFAS Indianapolis.

   We performed this audit from January 2007 through September 2007. DFAS
   Indianapolis and Army career counselors briefed our team on the DJMS database
   and the Army reenlistment bonus process. We examined reenlistment bonus
   processing documents and internal review documents maintained at
   DFAS Indianapolis. We interviewed DFAS Indianapolis Army Military Pay
   Operations personnel as well as Army retention personnel at Ft. Belvoir. In
   addition, Army Human Resources Command – Enlistment Personnel
   Management Directorate personnel briefed us on its responsibilities for providing
   support for the RETAIN system.

   We used data mining software to compare the Army RETAIN database, against
   DJMS for Army Service members who were paid SRBs. We examined SRBs
   because the Army paid approximately $654 million in SRBs during FY 2006. We
   have not made statistical projections because we used data mining techniques to
   select items for examination in the audit.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of DJMS, the database that processes bonus data, although
   we did rely on data produced by that system. We did not evaluate the general and
   application controls of RETAIN, the database that the Army uses to record re-
   enlistment bonus data. Instead we determined data reliability by comparing the
   data provided to us from DJMS and RETAIN to source documents, reports, and
   the explanations of DFAS and Army personnel. Not evaluating the controls did
   not affect the results of the audit.

   Use of Technical Assistance. The DoD OIG Quantitative Methods Division and
   the Data Mining Division assisted with the audit.

   We asked the Quantitative Methods Division to review, analyze, and compare
   three files: the combined 2006 dataset containing 836 observations; the
   timeliness file for January through July 2006 containing 642 observations; and the
   timeliness file for August through December 2006 containing 194 observations.
   The Quantitative Methods Division determined that the January through July
   2006 file and the August through December 2006 file exhibit similar
   characteristics to the extent there are no major differences between them. As a
   result, our audit could not determine whether there was a difference in the
   timeliness of SRB payments between the two time periods.




                                       10
      The Data Mining Division trained our team to use data mining software and
      provided us with software to compare data and sort information. We used the
      software to compare RETAIN reenlistment bonus data received according to
      Army records against DFAS data of reenlistment bonus data paid.

      Government Accountability Office (GAO) High-Risk Area. GAO has
      identified several high-risk areas in DoD. This report provides coverage of the
      DoD Financial Management high-risk area.


Prior Coverage
      During the last 5 years, GAO has issued two reports discussing internal controls
      over reenlistment bonuses. Unrestricted GAO reports can be accessed over the
      Internet at http://www.gao.gov.

GAO
      Report No. GAO-04-86, “DoD Needs More Effective Controls to Better Assess
      the Progress of the Selective Reenlistment Bonus Program,” November 13, 2003

      Report No. GAO-03-149, “Military Personnel: Management and Oversight of
      Selective Reenlistment Bonus Program Needs Improvement,” November 25, 2002




                                          11
Appendix B. Glossary
   Additional Obligated Service – Active Service commitment beyond the existing
   contractual Service agreement including enlistments, extensions of enlistments,
   and reenlistments.

   Code T – Code in the Defense Joint Military Pay System that indicates Defense
   Finance and Accounting Service has suspended the member’s account and the
   member is pending separation status from the military.

   FLASH Message – E-mail containing Selective Reenlistment Bonus payment
   information that Defense Finance and Accounting Service reviews to determine
   whether the Service member was erroneously paid.

   Maximum Bonus Indicator – Code used in the Defense Joint Military Pay
   system to prevent the overpayment of a member’s Selective Reenlistment Bonus.

   Military Occupational Specialty – A grouping of duty positions requiring
   similar qualifications, and the performance of closely related duties.

   Stop/Loss – The suspension of a member’s promotion, retirement, or separation if
   the President determines the member is essential to national security.

   Selective Reenlistment Bonus – A bonus paid to Army Service members in
   critical military occupational skills to ensure adequate retention levels.




                                      12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Other Defense Organizations
Director, Defense Finance and Accounting Service
  Indianapolis

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
House Subcommittee on National Security and Foreign Affairs
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
and the Census, Committee on Government Reform




                                          13
Defense Finance and Accounting Service
Indianapolis Comments




                      15
Final Report
 Reference




Added to
final report
(Pg. 1)

Revised in
final report
(Pg. 1)

Added to
final report
(Pg. 1)


Revised in
final report
(Pg. 2)


Added to
final report
(Pg. 2)




               16
     Final Report
      Reference




     Added first
     two
     sentences to
     final report
     (Pg. 6)




17
Final Report
 Reference




Deleted


Renumbered
as
Recommend
-ation 1.b.




               18
19
20
     Final Report
      Reference




     Added
     information
     on 138
     accounts to
     final report
     (Pg. 9)




21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia Marsh
Douglas P. Neville
Joseph A. Powell
Lusk Penn
Brett Ward
Donovan Quimby
Lisa Vega
Jason James
Henry Matthews
Latesha Goode
Ann Thompson
